No. _______

In The

Supreme Court of the United States
RALPH ABEKASSIS,
Petitioner,

v.
NEW YORK CITY, NEW YORK, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

APPENDIX

AMY L. BELLANTONI

THE BELLANTONI LAW FIRM

2 Overhill Road, Suite 400
Scarsdale, New York 10585
(914) 367-0090
abell@bellantoni-law.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond VA 23219 (800) 847-0477

APPENDIX
Appendix A
Order of the United States Court of
Appeals for the Second Circuit, Abekassis v.
New York City, No. 20-3038, Dated March 4,
2021 ..................................................................... App-1
Appendix B
Order of the United States Court of
Appeals for the Second Circuit, Abekassis v.
New York City, No. No. 20-3038, Dated
March 26, 2021 .................................................... App-3
Appendix C
Opinion and Order of the United States
District Court for the Southern District of
New York, Abekassis v. New York City, 19cv-8004 (PAE) ...................................................... App-4
Appendix D
Constitutional and Statutory Provisions
Involved ............................................................. App-47
Appendix E
Email to Petitioner from NYPD License
Division, Dated December 17, 2020 ................. App-57
Appendix F
Email from New York City Law
Department, Dated August 9, 2021 ................. App-58

App-1

Appendix A
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
________________
No. 20-3038
________________
RALPH ABEKASSIS,
Plaintiff-Appellant,
v.
NEW YORK CITY, NEW YORK, et al.,
Defendants-Appellees.
________________
Filed: March 4, 2021
________________
Present: José A. Cabranes, Reena Raggi, Richard J.
Sullivan, Circuit Judges
Appellees move to dismiss the appeal as moot. Upon
due consideration, it is hereby ORDERED that the
motion is GRANTED. See Libertarian Party of Erie
Cty. v. Cuomo, 970 F.3d 106, 122 (2d Cir. 2020). It is
further ORDERED that the district court’s judgment
is VACATED and the case is REMANDED with
instructions to dismiss the action. See Bragger v.
Trinity Capital Enter. Corp., 30 F.3d 14, 17 (2d Cir.
1994) (“When a civil case becomes moot while an

App-2

appeal is pending, it is the general practice of an
appellate court to vacate the unreviewed judgment
granted in the court below and remand the case to
that court with directions to dismiss it.”).
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court

App-3

Appendix B
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
________________
No. 20-3038
________________
RALPH ABEKASSIS,
Plaintiff-Appellant,
v.
NEW YORK CITY, NEW YORK, et al.,
Defendants-Appellees.
________________
Filed: March 26, 2021
________________
Appellant Ralph Abekassis filed a motion for
reconsideration and the panel that determined the
motion has considered the request.
IT IS HEREBY ORDERED, that the motion is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe,
Clerk of Court

App-4

Appendix C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________
No. 19 Civ. 8004
________________
RALPH ABEKASSIS,
Plaintiff,
v.
NEW YORK CITY, NEW YORK, et al.,
Defendants.
________________
Filed: Aug. 7, 2020
________________
OPINION AND ORDER
________________
Hon. Paul A. Engelmayer, United States District
Judge:
Plaintiff Ralph Abekassis, a New York
resident, brings this action for declaratory and
injunctive relief against the City of New York (“the
City”), New York Police Department (“NYPD”)
Commissioner James O’Neill, NYPD License Division

App-5

Director Jonathan David, and NYPD License Division
Commanding Officer Michael Barreto. Abekassis
applied for a license to possess a handgun in his home.
Defendants denied his application, based on his prior
arrests, criminal summonses, and driving history,
including numerous moving violations and license
suspensions. Abekassis seeks a declaration that
portions of New York City’s gun licensing scheme––
specifically 38 RCNY § 5-10 (a), (h), (l), and (n)––
violate the Second Amendment, facially and as
applied, and asks the Court to enjoin defendants from
enforcing those provisions.
Before the Court is defendants’ motion to
dismiss the Complaint. For the reasons that follow,
the Court grants that motion in full.
I.
Background
A.
Statutory and Regulatory Background 1
1.
The New York State Statutory
Scheme
New York State prohibits possession of
“firearms,” including handguns, without a license.
Kachalsky v. County of Westchester, 701 F.3d 81, 85
(2d Cir. 2012) (citing N.Y. Penal Law §§ 265.01–
265.04, 265.20(a)(3)); see also Toussaint v. City of New
York, No. 17 Civ. 5576 (NGG), 2018 WL 4288637, at
*4 (E.D.N.Y. Sept. 7, 2018). In New York, individuals
may apply for a “premises license” or a “carry license.”
The Court may take judicial notice of the statutory licensing scheme.
See Pani v. Empire Blue Cross Blue Shield, 152 F.3d 67, 75 (2d Cir. 1998)
(“It is well established that a district court may rely on matters of public
record in deciding a motion to dismiss under Rule 12(b)(6), including
case law and statutes.”). And Abekassis’s Complaint, in putting the
statutory licensing scheme governing handgun license applications at
issue, implicates both the state and city licensing regulations reviewed
here. See Dkt. 1 (“Compl.”) ¶¶ 49 (New York State law), 65 (New
York City law).

1

App-6

See N.Y. State Rifle & Pistol Ass’n v. City of New York
(“NYSRP v. City”), 883 F.3d 45, 52–53 (2d Cir. 2018)
(internal quotation marks omitted) (citing N.Y. Penal
Law § 400.00(2)(a), (f)), vacated as moot, 140 S. Ct.
1525, 1526–27 (2020). “A premises license is specific
to the premises for which it is issued,” such as a home.
See id. at 53; see also 38 RCNY § 5-01(a) (defining
premises license as “a restricted handgun license,
issued for a specific business or residence location”).
New York Penal Law § 400.00 provides “the exclusive
statutory mechanism for the licensing of firearms in
New York State.” Kachalsky, 701 F.3d at 85 (quoting
O’Connor v. Scarpino, 83 N.Y.2d 919, 920 (1994)).
Under § 400.00, a licensing officer is to issue a firearm
license “only after investigation and finding that all
statements in a proper application for a license are
true.” N.Y. Penal Law § 400.00(1). To receive a
license, § 400.00 requires that an applicant, inter alia,
be at least age 21, lack convictions for felonies or
serious offenses, be of applicant, inter alia, be at least
age 21, lack convictions for felonies or serious
offenses, be of good moral character, and be someone
for “whom no good cause exists for the denial of the
license.” Id. § 400.00(1)(a)–(c), (n).
2. The New York City Regulatory Scheme
“To obtain a handgun license, an individual must
apply to his or her local licensing officer.” NYSRP v.
City, 883 F.3d at 52. The N.Y. Penal Law specifies
that, for New York City, that official is the Police
Commissioner. See id. (citing N.Y. Penal Law §
265.00(10)). The NYPD License Division exercises
the Police Commissioner’s authority in processing
and issuing handgun licenses. Id. (citing 38 RCNY §§
5-01–5-11).
“Every application triggers a local
investigation by police into the applicant’s mental

App-7

health history, criminal history, [and] moral
character[.]” Kachalsky, 701 F.3d at 87. When
considering the findings of such investigation, the
licensing officer “has considerable discretion in
whether to grant a license application.” Toussaint,
2018 WL 4288637, at *4 (citing NYSRP v. City, 883
F.3d at 52).
The relevant grounds for denial of a handgun license
are set forth in Title 38 of the Rules of the City of New
York (“RCNY”) at § 5-10. Section 5-10 states that an
application “may be denied where it is determined
that an applicant lacks good moral character or that
other cause exists for the denial, pursuant to New
York State Penal Law § 400.00(1).” 38 RCNY § 5-10.
It then sets out 14 factors that a licensing official
must consider when making a license determination.
These factors assess whether:
(a)
The applicant has been arrested, indicted or
convicted for a crime or violation except minor traffic
violations, in any federal, state or local jurisdiction[;]
(b)
[t]he applicant has been other than honorably
discharged from the Armed Forces of this country[;]
(c)
[t]he applicant has or is reasonably believed to
have a disability or condition that may affect the
ability to safely possess or use a handgun, including
but not limited to alcoholism, drug use or mental
illness[;]
(d)
[t]he applicant is or has been an unlawful user
of, or addicted to, a controlled substance or
marijuana[;]
(e)
[t]he applicant made a false statement on
her/his application, or failed to disclose her/his
complete arrest history, including sealed arrests.
Sealed arrests are made available to the License
Division pursuant to Article 160 of the Criminal

App-8

Procedure Law when an application has been made
for a license to possess a gun[;]
(f)
[t]he applicant is the subject of an order of
protection or a temporary order of protection[;]
(g)
[t]he applicant has a history of one or more
incidents of domestic violence[;]
(h)
[t]he applicant has a poor driving history, has
multiple driver license suspensions or has been
declared a scofflaw by the New York State
Department of Motor Vehicles[;]
(i)
[t]he applicant has failed to comply with
federal, state or local law or with Police Department
rules governing possession and use of firearms, rifles,
shotguns or ammunition[;]
(j)
[t]he applicant has been terminated from
employment under circumstances that demonstrate
lack of good judgment or lack of good moral
character[;]
(k)
[t]he applicant has demonstrated an inability
to safely store firearms, such as through a history of
lost/stolen firearms[;]
(l)
[t]he applicant has failed to pay legally
required debts such as child support, taxes, fines or
penalties imposed by governmental authorities[;]
(m) [t]he applicant fails to cooperate with the
License Division’s investigation of her/his application
or fails to provide information requested by the
License Division or required by this chapter[; and]
(n)
[there
is]
[o]ther
information
[that]
demonstrates an unwillingness to abide by the law, a
lack of candor towards lawful authorities, a lack of
concern for the safety of oneself and/or other persons
and/or for public safety, and/or other good cause for
the denial of the license.

App-9

Id. § 5-10(a)–(n). Section 5-10 directs that the License
Division “shall consider all relevant factors, including
but not limited to the number, recency and severity of
incidents and the outcome of any judicial or
administrative proceedings.” Id. § 5-10.
B.
Factual Background 2
1.
The Parties
Plaintiff Abekassis is age 33 and resides in
New York City. 3 Compl. ¶¶ 4, 18–19.
Defendant O’Neill, at the time of the filing of
the Complaint, was the NYPD Police Commissioner,
and, in that role, also served as the “Pistol Licensing
Officer” for New York City. 4 Id. ¶ 5a. In that position,
O’Neill set the customs, policies, and procedures for
the NYPD units that address handgun licenses. Id. ¶
6. Defendant Barreto, who works for the NYPD
License Division, is authorized to approve or
disapprove handgun license applications in the first
instance. Id. ¶ 9. If Barreto denies an application,
the applicant may file an appeal with the NYPD
The facts are drawn primarily from the Complaint. For the
purpose of resolving the motion to dismiss under Rule 12(b)(6),
the Court presumes all well-pled facts to be true and draws all
reasonable inference in favor of Abekassis. See, Koch v. Christie’s
Int’l PLC, 699 F.3d 141, 145 (2d Cir. 2012). The factual history
leading to the denial of Abekassis’s application for a premises
license does not appear to be in dispute.
3 The Complaint pleads that Abekassis is both a resident of
Kings County, New York, see Compl. ¶ 4, and Queens County,
New York, see id. ¶¶ 19, 67. This factual contradiction within
the Complaint has no bearing here.
4 O’Neill retired as NYPD Police Commissioner on December 2,
2019. Dkt. 19 (“Def. Reply”) at 1 n.1. Because the Complaint
names O’Neill in his official capacity, Abekassis’s suit for
declaratory and injunctive relief survives O’Neill’s retirement,
and seeks relief today against the current Commissioner,
Dermot Shea.
2

App-10

License Division’s Appeals Unit within 30 days. Id. ¶
12. Defendant David, as the director of the Appeals
Unit, is authorized to make a final decision on
handgun license applications that have been
appealed. Id. ¶¶ 13–14.
2.
Abekassis’s Application for a
Premises Handgun License
In 2018, Abekassis applied to the NYPD
License Division for a premises handgun license. Id.
¶¶ 22–23. On January 24, 2019, Barreto denied the
application. Id. ¶ 25. Barreto stated that the denial
was based on Abekassis’s two prior arrests (one for
arson; the other for aggravated unlicensed operation
of a motor vehicle in the third degree); five criminal
summonses (for failure to pay commercial tax,
improper license plates, improper registration, being
in a park after dark, and operating a boat without
registration numbers); and driving history, including
16 moving violations 5 and six license suspensions. 6
Id. ¶¶ 26, 30, 32.
On February 14, 2019, Abekassis filed an
administrative appeal with the NYPD License
Division’s Appeals Unit. Id. ¶ 28. In the appeal,
Abekassis noted that he had no criminal convictions.
He also provided context for his arrests and
summonses. See id. ¶ 30; see also id. ¶ 79. As to the
two arrests, Abekassis stated that (1) on October 24,
2001, he was arrested at age 16 for arson when he and
a friend were caught playing with a lighter in an
apartment building, and he was not prosecuted for
The Appeals Unit later determined that Abekassis had 14, not
16, moving violation summonses and related non-criminal
convictions. See Compl. ¶ 32.
6 The Appeals Unit later determined that Abekassis had nine,
not six, license suspensions. See Compl. ¶ 32.
5

App-11

that charge; and (2) on July 11, 2006, at age 21, he
was arrested for aggravated unlicensed operation of a
motor vehicle in the third degree for failure to pay
tickets, and he pled guilty to a reduced non-criminal
offense. See id.; see also id. ¶¶ 80–81. As to his
driving history, he stated that he had received 14, not
16, moving violations over the course of 10 years, paid
the fines for his unanswered tickets as soon as he had
become aware of them, and completed an accident
prevention course. See id. ¶ 30. Abekassis argued
that on these bases, his application should be granted.
See id.
On or about April 23, 2019, the License
Division’s Appeals Unit issued a “Notice of
Disapproval After Appeal” (“Notice of Disapproval”).
Id. ¶ 31. It affirmed the denial of Abekassis’s
handgun license application. Id. In affirming that
denial, the Appeals Unit relied on N.Y. Penal Law §
400.00, which states that “no license shall be issued
except for an applicant . . . (b) of good moral character
. . . and; (n) concerning whom no good cause exists for
the denial of the license.” Id. ¶ 32 (alterations in
original) (quoting N.Y. Penal Law § 400.00(1)(b), (n)).
It noted that “Section 5-10 . . . provides a list of what
shall be considered in assessing moral character and
whether good cause exists for a denial.” Id. As to
Abekassis’s application, the Appeals Unit found the
following § 5-10 factors relevant: (1) the facts and
circumstances surrounding his arrests, see 38 RCNY
§ 5-10(a); (2) his driving record and driver’s license
suspensions, see id. § 5-10(h); and (3) other
information reflecting a lack of concern for his own
safety or the safety of others, see id. § 5-10(n). Compl.
¶ 32; see also id. ¶ 34. The Notice of Disapproval did
not cite § 5-10(l), which concerns an applicant’s failure

App-12

to pay legally required debts, including governmentimposed fines or penalties.
As to Abekassis’s arrest record, the Appeals
Unit recounted Abekassis’s arrest at age 15 for
second-degree arson, a felony which the New York
City Law Department declined to prosecute, and his
arrest for aggravated unlicensed operation in the
third degree, after which he pled guilty to a noncriminal charge of operating a vehicle without a
license. Id. ¶ 32. As to Abekassis’s driving record, the
Appeals Unit noted that Abekassis had received 14
moving violations, and that his license had been
suspended nine times (five for unpaid fines and four
for non-scofflaw reasons). Id. On this basis, the
Appeals Unit found that Abekassis’s history
“demonstrate[s] a lack of concern[] for himself and
others,” and denied the application. Id.
Notwithstanding the license denial, the
Complaint alleges that Abekassis intends to possess
a handgun in his home for self-protection, and asserts
that such possession will likely subject him to
criminal prosecution. Id. ¶¶ 35–36. If he is convicted
of unlawful possession of a firearm, the Complaint
alleges, he will be prevented from possessing a gun
lawfully in the future. Id. ¶ 37. The Complaint
asserts that Abekassis “should not be forced to choose
between exercising his fundamental and pre-existing
right to possess firearms in his home for self-defense
and being subjected to criminal prosecution.” Id. ¶ 38.
3. This Lawsuit
On August 27, 2019, Abekassis filed the
Complaint, which asserts that the denial of
Abekassis’s premises license was unlawful. It claims
that 38 RCNY § 5-10(a), (h), (l), and (n) all violate the

App-13

Second Amendment, both facially and as applied to
Abekassis’s license denial, and that all are preempted
by N.Y. Penal Law § 400.00. See id. ¶¶ 136–39, 144–
46. The Complaint further claims that defendants’
application of the provisions of the N.Y. Penal Laws
that criminalize the unlicensed possession of
firearms––N.Y. Penal Law §§ 265.02(5)(i), 265.03(2),
265.04(2), and 265.15(6)––would be unconstitutional
if applied to Abekassis. See id. ¶¶ 140–43.
On November 26, 2019, defendants filed a
motion to dismiss, Dkt. 12; a supporting
memorandum of law, Dkt. 14 (“Def. Mem.”); and the
declaration of Aimee K. Lulich, Esq., Dkt. 13. On
November 27, 2019, the Court issued an order
directing Abekassis to either amend his complaint or
oppose the motion to dismiss. Dkt. 15. On December
26, 2019, Abekassis filed a memorandum in
opposition to the motion to dismiss. Dkt. 18 (“Pl.
Mem.”). On January 10, 2020, defendants filed a
reply memorandum. Def. Reply.
II.

Applicable Legal Standards
A.
Motion to Dismiss for Failure to
State a Claim Under Rule 12(b)(6)
To survive a motion to dismiss under Rule
12(b)(6), a complaint must plead “enough facts to
state a claim to relief that is plausible on its face.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
A claim will only have “facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). A complaint is properly
dismissed where, as a matter of law, “the allegations
in a complaint, however true, could not raise a claim

App-14

of entitlement to relief.” Twombly, 550 U.S. at 558.
Although the court must accept as true all well-pled
factual allegations in the complaint and draw all
reasonable inferences in the plaintiff’s favor,
Steginsky v. Xcelera Inc., 741 F.3d 365, 368 (2d Cir.
2014), that tenet “is inapplicable to legal conclusions,”
Iqbal, 556 U.S. at 678.
III. Discussion
Defendants move to dismiss Abekassis’s
claims. They argue that (1) Abekassis lacks standing
to challenge 38 RCNY § 5-10(l), because that
provision was not a basis for the denial of his license
application; (2) the Complaint does not plead a
plausible Second Amendment claim; (3) the Court
should decline to exercise supplemental jurisdiction
over his state-law preemption claim; and (4) even if
the Court exercised such jurisdiction and reached
that issue, 38 RCNY § 5-10 is not preempted by state
law. The Court addresses each in turn.
A. Standing to Challenge 38 RCNY § 5-10(l)
At the threshold, defendants argue that
Abekassis lacks standing to challenge 38 RCNY § 510(l) because the License Division and Appeals Unit
did not rely on that specific factor in denying
Abekassis’s residential firearm permit application.
See Def. Mem. at 13–14. Section 5-10(l) requires that
a licensing official consider––in the “good moral
character” and “good cause” analyses––an applicant’s
failure “to pay legally required debts such as child
support, taxes, fines or penalties imposed by
governmental authorities.”
38 RCNY § 5-10(l).
Abekassis argues that he has standing because, even
though the Notice of Disapproval did not invoke § 5-

App-15

10(l), it stated that his “[driver’s] license was
suspended five times due to unpaid fines and on four
other occasions for non-scofflaw related reasons.” Pl.
Mem. at 22 (emphasis in original) (citing Compl. ¶
32).
The Court finds that Abekassis does not have
standing to challenge this provision.
To establish Article III standing, a plaintiff
must establish the “irreducible constitutional
minimum” of the following three elements: (1) injuryin-fact, meaning there is “an actual or imminent” and
“concrete and particularized” harm to a “legally
protected interest”; (2) causation, which requires the
injury to be “fairly . . . trace[able]” to the challenged
action of the defendant; and (3) redressability,
meaning that it must be “likely, as opposed to merely
speculative,” that a favorable decision by a court will
redress the injury. See Lujan v. Defs. of Wildlife,
504 U.S. 555, 560–61 (1992) (internal quotation
marks and citations omitted) (alteration in original).
To survive a motion to dismiss for lack of standing,
“general factual allegations of injury resulting from
the defendant’s conduct may suffice,” id. at 561, but
“a plaintiff cannot rely solely on conclusory
allegations of injury or ask the court to draw
unwarranted inferences in order to find standing,”
Baur v. Veneman, 352 F.3d 625, 637 (2d Cir. 2003).
Abekassis asks the Court to treat the Notice of
Disapproval’s reference to Abekassis’s license
suspensions due to unpaid fines as connoting that the
Appeals Unit relied, sub silentio, on § 5-10(l) to deny
his application. See Pl. Mem. at 22. The Court
declines to so construe the Notice of Disapproval. The
Notice of Disapproval clearly refers to these license
suspensions as factual context germane to a separate

App-16

factor––§ 5-10(h), the applicant’s driving record––
which it explicitly cited in denying Abekassis’s
application. See Compl. ¶ 32. The License Division’s
Appeals Unit found the five scofflaw suspensions
relevant to Abekassis’s driving record when
considered alongside Abekassis’s other driving
infractions, which included four other license
suspensions––unrelated to a failure to pay fines––and
14 moving violations. See id. Critically, the Notice of
Disapproval cites § 5-10(h), the driving-record factor,
as a basis for its decision, but it does not cite to § 510(l). See id. The Appeals Unit thus did not conclude
that Abekassis lacked good moral character because
he failed to pay fines per se, but because of
Abekassis’s troublesome overall driving record, of
which the scofflaw suspensions were but one of a
number of relevant data points.
The analysis by the Appeals Unit thus does not
support Abekassis’s claim that it (or the License
Division, whose decision it upheld) relied on § 5-10(l).
Nor does the Appeals Unit’s analysis suggest that it
would have regarded Abekassis’s non-payment of
vehicular fines as a basis, in isolation, to deny him the
license.
Accordingly, even construing the facts in the
light most favorable to Abekassis, the Court cannot
find that the License Division or Appeals Unit relied
on § 5-10(l) in denying Abekassis’s application. And
because 38 RCNY § 5-10(l) was not a factor on which
the license denial in this case was based, Abekassis
cannot demonstrate an injury-in-fact that is “fairly
traceable” to § 5-10(l). See Lujan, 504 U.S. at 560
(alterations and citation omitted).
The Court
therefore dismisses the Complaint’s claims based on

App-17

§ 5-10(l), including Abekassis’s Second Amendment
challenge to that provision, for lack of standing.

B.

Second Amendment Challenges to 38
RCNY § 5-10(a), (h), and (n)
Abekassis challenges the provisions of 38
RCNY § 5-10 on which the License Division relied––
subsections (a), (h) and (n)––both facially and as
applied to him.
The Court first reviews the
framework the Second Circuit has developed for
assessing firearms regulations under the Second
Amendment, and determines that, under that
framework, Abekassis’s facial and as-applied
challenges to 38 RCNY § 5-10 merit intermediate
scrutiny. The Court next analyzes Abekassis’s facial
challenge, and then his as-applied challenge.
1.

Framework for Analyzing
Second Amendment
Challenges
The Second Amendment provides that: “A well
regulated Militia, being necessary to the security of a
free State, the right of the people to keep and bear
Arms, shall not be infringed.” In District of Columbia
v. Heller, 554 U.S. 570 (2008), the Supreme Court
held, for the first time, that the Amendment “protects
an ‘individual right to possess and carry weapons in
case of confrontation[.]’” United States v. Jimenez, 895
F.3d 228, 232 (2d Cir. 2018) (quoting Heller, 554 U.S.
at 592). “The core of this protection is ‘the right of
law-abiding responsible citizens to use arms in
defense of hearth and home.’” Mishtaku v. City of
New York, No. 14 Civ. 839 (VSB), 2015 WL 13002182,

App-18

at *3 (S.D.N.Y. May 4, 2015) (quoting Heller, 554 U.S.
at 635), aff’d sub nom. Mishtaku v. Espada, 669 F.
App’x 35 (2d Cir. 2016). The Supreme Court has since
held that the Amendment’s protection applies, via the
Fourteenth Amendment, to firearms regulation by
states and localities. See McDonald v. City of
Chicago, 561 U.S. 742, 791 (2010).
The Second Amendment right articulated in
Heller and McDonald, however, “is not unlimited.”
Heller, 554 U.S. at 626. It is “not a right to keep and
carry any weapon whatsoever in any manner
whatsoever and for whatever purpose.” Id. On the
contrary, the Supreme Court cautioned in Heller that
“nothing in our opinion should be taken to cast doubt
on longstanding prohibitions on the possession of
firearms by felons and the mentally ill, or laws
forbidding the carrying of firearms in sensitive places
such as schools and government buildings, or laws
imposing conditions and qualifications on the
commercial sale of arms.” Id. at 626–27. That list of
“presumptively lawful regulatory measures,” the
Court added, provides “only . . . examples” and “does
not purport to be exhaustive.” Id. at 627 n.26. In
McDonald, the Court similarly observed that
“incorporation does not imperil every law regulating
firearms.” McDonald, 561 U.S. at 786.
Although Heller and McDonald are explicit
that some restrictions on gun possession and carrying
are compatible with the Second Amendment, neither
decision “delineated the precise scope of the Second
Amendment or the standards by which lower courts
should assess the constitutionality of firearms
restrictions.” N.Y. State Rifle & Pistol Ass’n v. Cuomo
(“NYSRP v. Cuomo”), 804 F.3d 242, 254 (2d Cir.
2015); see also Kachalsky, 701 F.3d at 88–89 (“[I]n

App-19

many ways, [Heller] raises more questions than it
answers. . . . What we do not know is . . . the
standards for determining when and how the [Second
Amendment] right can be regulated by a government.
This vast ‘terra incognita’ has troubled courts since
Heller was decided.” (quoting United States v.
Masciandaro, 638 F.3d 458, 475 (4th Cir. 2011))).
The Second Circuit has adopted a two-step
framework to assess whether a firearm restriction
violates the Second Amendment. See NYSRP v.
Cuomo, 804 F.3d at 254; see also, e.g., Jimenez, 895
F.3d at 232; NYSRP v. City, 883 F.3d at 55. Under
that test, a court must (1) “determine whether the
challenged legislation impinges upon conduct
protected by the Second Amendment,” and if so, (2)
“next determine and apply the appropriate level of
scrutiny.” NYSRP v. City, 883 F.3d at 55 (quoting
NYSRP v. Cuomo, 804 F.3d at 254, 257).
a.

Step One: Whether the Second
Amendment Applies
Defendants do not dispute that 38 RSNY § 5-10
impinges on conduct protected by the Second
Amendment. The Court here assumes arguendo that
it does, consistent with the Second Circuit’s postHeller treatment of firearms restrictions. In a series
of challenges to such laws, the Circuit has repeatedly
“‘proceed[ed] on the assumption that’ the regulations
at issue restrict activity protected by the Second
Amendment.” Toussaint, 2018 WL 4288637, at *5
(quoting NYSRP v. Cuomo, 804 F.3d at 257); see also
Jimenez, 895 F.3d at 234; NYSRP v. City, 883 F.3d at
55; Corbett v. City of New York, No. 18 Civ. 7022
(KPF), 2019 WL 2502056, at *9 (S.D.N.Y. June 17,
2019), aff’d, --- F. App’x ---, No. 19-2152, 2020 WL

App-20

2988856 (2d Cir. June 4, 2020). As in these cases,
however, this Court need not conclusively “decide
whether that is so, because, as explained below
[section 5-10] ‘pass[es] constitutional muster’ under
intermediate scrutiny.” Toussaint, 2018 WL 4288637,
at *5 (alterations in original) (quoting NYSRP v. City,
883 F.3d at 55).
b.

Step Two: What Level of Scrutiny
Applies
The Supreme Court has yet to define the level
of scrutiny to apply to Second Amendment
challenges. 7 The Second Circuit, like many sister
circuits, has declined to adopt a single tier of scrutiny
for assessing Second Amendment issues, and instead
calibrates the standard depending on the
characteristics of the law under review.
In
determining the proper level of scrutiny, the Circuit
has considered two factors: “(1) ‘how close the law
comes to the core of the Second Amendment right’,
and (2) ‘the severity of the law’s burden on the right.’”
NYSRP v. Cuomo, 804 F.3d at 258 (quoting Ezell v.
City of Chicago, 651 F.3d 684, 703 (7th Cir. 2011)).

The absence of definite guidance from the Court on this point
has been noted recently by several Justices. See Rogers v.
Grewal, 140 S. Ct. 1865, 1866 (2020) (mem.) (Thomas, J.,
dissenting) (“[L]ower courts have struggled to determine the
proper approach for analyzing Second Amendment challenges.”);
N.Y. State Rifle & Pistol Ass’n v. City of New York, 140 S. Ct.
1525, 1527 (2020) (Kavanaugh, J., concurring) (“I share Justice
Alito’s concern that some federal and state courts may not be
properly applying Heller and McDonald.”); Silvester v. Becerra,
138 S. Ct. 945, 947 (2018) (mem.) (Thomas, J., dissenting) (“This
Court has not definitively resolved the standard for evaluating
Second Amendment claims.”).
7

App-21

Strict, intermediate, or non-heightened scrutiny may
result from assessment of these factors. See NYRSP
v. City, 883 F.3d at 55. Strict scrutiny is warranted
where “[l]aws . . . place substantial burdens on core
rights[.]” Jimenez, 895 F.3d at 234. Intermediate
scrutiny is warranted in the far more common context
in which “laws . . . place either insubstantial burdens
on conduct at the core of the Second Amendment or
substantial burdens on conduct outside the core of the
Second Amendment (but nevertheless implicated by
it)[.]” Id. Finally, where the regulation at issue
“neither implicate[s] the core protections of the
Second Amendment nor substantially burden[s] their
exercise,” heightened scrutiny is not warranted.
NYSRP v. City, 888 F.3d at 56 (quoting NYSRP v.
Cuomo, 804 F.3d at 258); see also United States v.
Decastro, 682 F.3d 160, 168–69 (2d Cir. 2012) (not
applying heightened scrutiny). 8
The alternative to this approach, urged by some jurists and
scholars, is to “look solely to the text, history, and tradition of
the Second Amendment” in resolving any particular challenge.
Kachalsky, 701 F.3d at 89 n.9; see, e.g., Tyler v. Hillsdale Cnty.
Sheriff’s Dep’t, 837 F.3d 678, 702 (6th Cir. 2016) (Batchelder, J.,
concurring) (“[The two-step test] fails to give adequate attention
to the Second Amendment’s original public meaning…And it is
that meaning - as Heller and McDonald make unmistakably
clear—informed as it is by the history and tradition surrounding
the right, that counts.” (emphasis in original)); Heller v. District
of Columbia (“Heller II”), 670 F.3d 1244, 1271 (D.C. Cir. 2011)
(Kavanaugh, J., dissenting) (“In my view, Heller and McDonald
leave little doubt that courts are to assess gun bans and
regulations based on text, history, and tradition, not by a
balancing test such as strict or intermediate scrutiny.”); cf.
Moore v. Madigan, 702 F.3d 933, 935–37 (7th Cir. 2012) (Posner,
J.) (discussing self-defense in the eighteenth century to analyze
the validity of current firearm restrictions). The Second Circuit
has, however, foregone this mode of analysis, while recognizing
8

App-22

Abekassis agrees that the Second Circuit’s two-factor
test applies to the case at hand. He urges that 38
RCNY § 5-10 merits strict scrutiny under that
framework. See Pl. Mem. at 2–3, 7. The Court,
however, applying that test, finds, with defendants,
that intermediate scrutiny is warranted.
i.

The Core of the Second
Amendment Right
Abekassis argues that § 5-10 implicates the
Second Amendment’s core because § 5-10 governs the
issuance of licenses that enable an individual to
possess a firearm in the home for self-defense. See Pl.
Mem. at 4. Abekassis is correct that § 5-10’s licensing
requirement regulates gun ownership in the home.
However, the features and function of § 5-10 are such
that it does not trigger the application of strict
scrutiny.
Abekassis is correct that Second Amendment
rights are at their strongest when they concern
“protecting oneself in one’s home with a weapon in
common use[.]” Jimenez, 895 F.3d at 234 (citing
Heller, 554 U.S. at 634–35); see also Kachalsky, 701
F.3d at 89 (“What we know from [Heller and
McDonald] is that Second Amendment guarantees
are at their zenith within the home.”). However, the
Supreme Court in Heller was clear that this elevated
interest belongs only to “law-abiding, responsible
citizens to use arms in defense of hearth and home.”
that under Heller, “where a state regulation is entirely
inconsistent with the protections afforded by an enumerated
right—as understood through that right's text, history, and
tradition—it is an exercise in futility to apply means-end
scrutiny,” because the same outcome (invalidation of the state
regulation) would result. Kachalsky, 701 F.3d at 89 n.9

App-23

Heller, 554 U.S. at 635 (emphasis added). As the
Second Circuit has put the point: “The Supreme Court
thus identified the core of Second Amendment
protections by reference not only to particular uses
and particular weapons but also to particular persons,
namely those who are ‘law-abiding and responsible.’”
Jimenez, 895 F.3d at 234–35.
Heeding this analysis, the Second Circuit has
“consistently included the ‘law-abiding and
responsible’ qualification when identifying the Second
Amendment’s core protections.” Id. at 235. It has
held that “heightened scrutiny is triggered only by
those restrictions that . . . operate as a substantial
burden on the ability of law-abiding citizens to
possess and use a firearm for self-defense (or for other
lawful purposes).” Decastro, 682 F.3d at 166; accord
NYSRP v. City, 883 F.3d at 56; NYSRP v. Cuomo, 804
F.3d at 259; Kwong v. Bloomberg, 723 F.3d 160, 167
(2d Cir. 2013); Kachalsky, 701 F.3d at 93; see also
United States v. Bryant, 711 F.3d 364, 369 (2d Cir.
2013) (“We read [Heller’s] exegesis as an implicit
limitation on the exercise of the Second Amendment
right to bear arms for ‘lawful purpose[s],’ and a
limitation on ownership to that of ‘law-abiding,
responsible citizens[.]’” (internal citations omitted)). 9
Other circuits have taken the same approach. See
Jimenez, 895 F.3d at 235 (collecting cases).
In different cases, the Second Circuit has considered a
particular law’s infringement on the rights of “law-abiding,
responsible citizens” as relevant to factor one (the core of the
right), and to factor two (the severity of the burden). Compare
Jimenez, 895 F.3d at 235 (factor one), with NYSRP v. City, 883
F.3d at 56 (factor two). Regardless, the fact that New York City’s
restriction substantially burdens gun possession only as to
persons outside this group supports the use of intermediate, as
opposed to strict, scrutiny.
9

App-24

Here, critically, although the state licensing
scheme, and § 5-10’s implementation of it within New
York City, apply to gun ownership in the home, they
do not implicate the population as a whole. Instead,
they are explicitly aimed at filtering out those citizens
who, as revealed by the application of the § 5-10
factors, are not law-abiding or responsible. To that
end, the New York Penal Laws authorize local officers
to investigate the background of license applicants.
See Kachalsky, 701 F.3d at 87. And § 5-10’s list of
factors bearing on an individual’s suitability for
licensure, including the three at issue here––
requiring consideration of an applicant’s arrests,
indictments, and convictions; poor driving history,
multiple driver’s license suspensions, and scofflaw
status; and concern for the safety of himself and
others, see 38 RCNY § 5-10(a), (h), (n)––are germane
to assessing whether the particular applicant is lawabiding and responsible. See Toussaint, 2018 WL
4288637, at *6 (applying intermediate scrutiny to
challenge of N.Y. Penal Law § 400.00 and 38 RCNY §
5-10 because, inter alia, plaintiff was not a “lawabiding” citizen falling within the Second
Amendment’s core).
Thus, rather than facially
infringing on rights protected by the Second
Amendment, the § 5-10 factors, including those
implicated here, are aimed at limiting gun possession
to people who have such a right, by helping to identify
the “‘law-abiding and responsible’ persons whose
interests in possessing firearms are at the
Amendment’s core.” Jimenez, 895 F.3d at 235.
The Court accordingly holds––consistent with
other courts that have considered similar challenges–
–that, although the New York State licensing scheme
and the New York City law applying it squarely

App-25

implicate gun possession in the home, they do not
implicate the Second Amendment’s core, because they
deny such possession only to persons who are found
not to be “law-abiding and responsible.” As Judge
Broderick has put the point: “[T]he relevant sections
of the RCNY merely restrict access to handguns for
the subset of individuals who lack the characteristics
for safe possession of a handgun[.]” Mishtaku, 2015
WL 13002182, at *5; see also Aron v. Becker, 48 F.
Supp. 3d 347, 371 (N.D.N.Y. 2014) (applying
intermediate scrutiny to N.Y. Penal Law § 400.00’s
good-cause analysis, which “burden[s] only the
narrow class of persons who are adjudged to lack the
characteristics necessary for the safe possession of a
handgun”). This first factor thus indicates that
intermediate, not strict, scrutiny is in order.
ii.
The Severity of § 5-10’s Burden on
That Right
In assessing the severity of a challenged
restriction on Second Amendment protections, courts
look to “[t]he scope of the legislative restriction and
the availability of alternatives” to procure firearms.
NYSRP v. City, 883 F.3d at 56 (quoting NYSPR v.
Cuomo, 804 F.3d at 259). The epitome of a severe
burden on the Second Amendment’s core right would
be a categorical ban on possession of handguns in the
home, as in Heller. See NYSRP v. City, 883 F.3d at 56.
In contrast, “marginal, incremental or even
appreciable restraint[s] on the right to keep and bear
arms” present lesser burdens. Decastro, 682 F.3d at
166. Only “substantial burden[s] on the ability of lawabiding citizens to possess and use a firearm” warrant
heightened scrutiny. See id.;see also Kachalsky, 701
F.3d at 93. “No ‘substantial burden’ exists—and hence
heightened scrutiny is not triggered—‘if adequate

App-26

alternatives remain for law-abiding citizens to
acquire a firearm for self-defense.’” NYSRP v. Cuomo,
804 F.3d at 259 (quoting Decastro, 682 F.3d at 168).
In considering the severity of a regulatory burden, the
Second Circuit has often - particularly in the context
of facial challenges - considered the challenged
restriction’s effect on the Second Amendment rights
of all law-abiding citizens. See NYRSP v. Cuomo, 804
F.3d at 259 (ban on semiautomatic weapons and highcapacity magazines held not severe because
“numerous alternatives remain[ed] for law-abiding
citizens to acquire a firearm for self-defense” (internal
quotation marks and citation omitted)); Kachalsky,
701 F.3d at 93 (requirement that applicants for
concealed carry license show “proper cause”—i.e., a
special need for self-protection that exceeds that of
the general population or people of the same
profession - held severe because it placed “substantial
limits on the ability of law-abiding citizens to possess
firearms for self-defense in public”); see also Henry v.
County of Nassau, --- F. Supp. 3d ---, No. 17 Civ. 6545
(DRH), 2020 WL 1185283, at *9 (E.D.N.Y. Mar. 12,
2020) (burden of N.Y. Penal Law § 400.00 and Nassau
County policies held not severe where order of
protection issued against plaintiff resulted in a “total
ban on firearm ownership for him,” but he had not
alleged that Nassau County had “implemented a
policy banning all firearm ownership for all people”).
So analyzing § 5-10, the burden it imposes on the core
Second Amendment right is less than substantial.
That is because § 5-10 is a licensing scheme. It is not
an outright prohibition on possession of a class of
weapons. And § 5-10 does not reflexively obligate the
denial of a license; the presence of no one § 5-10 factor,
or combination of factors, mandates the denial of a

App-27

license. Instead, the scheme reposes discretion initially in the License Division and thereafter in the
reviewing Appeals Unit - in assessing holistically
what the relevant factors indicate about the
applicant’s moral character and whether they supply
good cause to deny the license. See 38 RCNY § 5-10
(an application “may be denied where it is determined
that an applicant lacks good moral character or that
other good cause exists for the denial” after
considering the 14 factors (emphasis added)); see also
Torcivia v. Suffolk County, 409 F. Supp. 3d 19, 38
(E.D.N.Y. 2019) (“The fact that the pistol licensing
provisions are discretionary, and not mandatory, only
strengthens the Court’s conclusion. By permitting a
licensing official to make a case-by-case,
individualized determination as to an individual's
fitness to hold a license, these provisions permit the
government to more narrowly prescribe the
circumstances under which an individual’s Second
Amendment rights may be burdened.”).
To be sure, there is no alternative scheme to
procure a handgun license for the home; a person
whose license application is denied and who fails on
appeal (and, if brought, in an Article 78 challenge) to
overturn that result has no remedy other than to
reapply and attempt a stronger showing. But, given
the focus and nature of the listed factors, a lawabiding, responsible citizen should be able to satisfy §
5-10 and obtain a premises license. Cf. Corbett, 2019
WL 2502056, at *1–2 (explaining, in context of N.Y.
Penal Law § 400.00, that a premises license “is not
difficult to come by” (citing People v. Hughes, 22
N.Y.3d 44, 50 (2013)). Abekassis notably does not
plead or point to any pattern of license denials under
§ 5-10 to law-abiding and responsible persons. And

App-28

the Court has not otherwise been made aware of
license denials to such persons.
That, however, is not the end of the analysis. In
some cases, in evaluating this factor, the Second
Circuit has examined the severity of the burden that
the challenged regulation imposes on the individual
plaintiff. See, e.g., Jimenez, 895 F.3d at 236 (burden
presented by § 922(g)(6), which makes it unlawful for
those dishonorably discharged from Armed Forces to
possess firearms or ammunition, held severe because
plaintiff—who had been dishonorably discharged—
could not obtain firearms or ammunition and had no
alternatives to do so); NYSRP v. City, 883 F.3d at 57
(rule prohibiting individual with premises license
from transporting handgun licensed in New York City
outside of city limits held not to place substantial
burden on plaintiff, who was prevented from taking
his city-licensed gun to second home, because he could
obtain another handgun license there). Abekassis
urges this mode of analysis. Under it, Abekassis’s
Second Amendment rights unavoidably have been
severely burdened by application of § 5-10. That is
because he has been denied a handgun license, and
because the RCNY’s provisions for other firearms
(shotguns and rifles) licenses appear to track § 5-10.
See Pl. Mem. at 6. Therefore, as Abekassis observes,
the License Division and Appeals Units decisions
appear effectively to block him, absent changed
circumstances, from lawfully possessing any kind of
firearm in his home. See id.
Even assuming, however, that this mode of
analysis were used to evaluate the burden imposed by
§ 5-10 - i.e., that the burden is measured by its impact
on Abekassis alone and found substantial intermediate scrutiny would still be in order under

App-29

the Second Circuit’s analysis in Jimenez. The Court
there found a “substantial burden[] on [plaintiff’s]
non-core rights,” and held that these are “usually
analyzed . . . with intermediate scrutiny.” Jimenez,
895 F.3d at 236.
Use of intermediate scrutiny further aligns with the
approach taken within the Circuit, post-Heller, to
Second Amendment claims.
The application of intermediate scrutiny in this
case is, finally, in line with the practice of the Second
Circuit, which to date has not applied strict scrutiny
to a Second Amendment claim. See, e.g., Mishtaku,
669 F. App’x at 35 (2d Cir. 2016) (“We apply
intermediate scrutiny to laws implicating the Second
Amendment.” (citation omitted)); see also Doe No. 1 v.
Putnam County, 344 F. Supp. 3d 518, 537 (S.D.N.Y.
2018) (“This is in accord with the general practice in
the Second Circuit of applying intermediate scrutiny
to a wide variety of laws implicating the Second
Amendment.”). Relevant here, the Circuit has used
intermediate scrutiny to evaluate facial and asapplied challenges to licensing schemes and other
“restrictions that fall short of being universal
prohibitions on entire classes of firearms.” Toussaint,
2018 WL 4288637, at *5; see, e.g., Jimenez, 895 F.3d
at 236–38 (applying intermediate scrutiny in
upholding
statute
prohibiting
dishonorably
discharged veterans from possessing firearms);
NYSHR v. City, 883 F.3d at 62–64 (same in upholding
provision of New York City licensing scheme that did
not allow those with premises licenses to take their
firearms out of the city); Kwong, 723 F.3d at 168–69
(same in upholding residential handgun licensing
fee); Kachalsky, 701 F.3d at 96–97 (same in upholding
“proper cause” requirement for carry permits).

App-30

District courts in this Circuit have likewise
applied intermediate scrutiny to challenges to, and
arising under, the licensing scheme at issue here. See,
e.g., Mishtaku, 2015 WL 13002182, at *5 (challenge to
N.Y. Penal Law § 400.00 and 38 RCNY § 5-10 for
denial of premises license); Toussaint, 2018 WL
4288637, at *6–7 (challenge to N.Y. Penal Law §
400.00 and 38 RCNY § 5-10 for denial of carry
license). 10 In one such case, the Second Circuit
affirmed the use of intermediate scrutiny in assessing
a challenge to N.Y. Penal Law § 400.00 and 38 RCNY
§ 5-10 by a plaintiff who had been denied a premises
license. See Mishtaku, 669 F. App’x at 35–36.
Intermediate scrutiny has also been applied by most
courts, including the Second Circuit and courts within
it, “when reviewing statutes or laws that may restrict
the possession of handguns in the home.” N.Y. State
Courts have also applied intermediate scrutiny to N.Y. Penal
Law § 400.00 when the New York City licensing scheme was not
also at issue. See Weinstein v. Krumpter, 386 F. Supp. 3d 220,
231–32 (E.D.N.Y. 2019) (applying intermediate scrutiny to N.Y.
Penal Law § 400.00’s allowance of license revocation for felony
or serious offense conviction); Aron, 48 F. Supp. 3d at 371
(applying intermediate scrutiny to N.Y. Penal Law § 400.00’s
good moral character and good cause requirements, under which
plaintiff was denied residential firearm permit based on a lack
of “good judgment”); Sibley v. Watches, --- F. Supp. 3d ---, No. 19
Civ. 6517 (FPG), 2020 WL 2525771, at *7–8 & n.4 (W.D.N.Y.
May 18, 2020) (applying intermediate scrutiny to N.Y. Penal
Law § 265.01(1), which criminalizes handgun possession without
a license and “work[s] together” with § 400.00); Libertarian
Party of Erie Cnty. v. Cuomo, 300 F. Supp. 3d 424, 443–45
(W.D.N.Y. 2018) (applying intermediate scrutiny to facial and
as-applied challenges to N.Y. Penal Laws §§ 265.00(3), 265.01–
265.04, 265.20(a)(3), and 400.00, where applicant was denied
premises license because he had been arrested 50 times, served
four terms of imprisonment, and repeatedly failed to make child
support payments).
10

App-31

Rifle & Pistol Ass’n v. City of New York, 86 F. Supp.
3d 249, 259 (S.D.N.Y. 2015) (collecting cases), aff’d,
NYSRP v. City, 883 F.3d 45, vacated as moot, 140 S.
Ct. 1525, 1526–27 (2020). 11
The Court accordingly will apply intermediate
scrutiny to Abekassis’s facial and as applied
challenges. 12

See also, e.g., Stimmel v. Sessions, 879 F.3d 198, 206 (6th Cir.
2018) (declining to apply strict scrutiny where plaintiff was
denied ability to purchase a firearm to “defend his home and
family” because “the ‘risk inherent in firearms’ distinguishes the
right to keep and bear arms ‘from other fundamental rights that
have been held to be evaluated under a strict scrutiny test’”
(citation omitted)); Jackson v. City & Cnty. of San Francisco, 746
F.3d 953, 965–66 (9th Cir. 2014) (applying intermediate scrutiny
to regulation governing storage of handguns in home); United
States v. Chovan, 735 F.3d 1127, 1139–42 (9th Cir. 2013)
(applying intermediate scrutiny in upholding federal ban of
possession of firearms, including in homes, by persons convicted
of misdemeanor domestic violence crimes); Avitabile v. Beach,
368 F. Supp. 3d 404, 414, 418–19 (N.D.N.Y. 2019) (applying
intermediate scrutiny to ban of possession of tasers and stun
guns, which applied in homes).
12 In the rare instance in which courts––all outside this Circuit–
–have applied strict scrutiny to Second Amendment claims, the
regulations at issue have been more blanket and restrictive than
the licensing scheme at issue here. See, e.g., Gowder v. City of
Chicago, 923 F. Supp. 2d 1110, 1117, 1120–24 (N.D. Ill. 2012)
(invalidating Chicago ordinance that forbade residential permits
for anyone formerly convicted of a misdemeanor––“basically
provid[ing] that anyone convicted of a nonviolent misdemeanor
offense relating to a firearm [was] forever barred from exercising
his constitutional right to possess a firearm in his own home for
self-defense” - under both strict scrutiny and a “text, history, and
tradition” analysis).
11

App-32

3.

Application of Intermediate
Scrutiny to Abekassis’s Challenges
A court applying intermediate scrutiny asks
whether the statute at issue is substantially related
to the achievement of an important government
interest. See NYSRP v. Cuomo, 804 F.3d at 261;
Kachalsky, 701 F.3d at 96. “To survive intermediate
scrutiny, the ‘fit between the challenged regulation
[and the government interest] need only be
substantial, not perfect.’” NYSRP v. Cuomo, 804 F.3d
at 261 (alteration in original) (citation omitted).
Unlike with strict scrutiny, courts applying
intermediate scrutiny need “not ensure that the
statute is ‘narrowly tailored’ or the ‘least restrictive
available means to serve the stated governmental
interest.’” Id. (citation omitted).
In applying intermediate scrutiny in the
context of Second Amendment challenges, the Second
Circuit has recognized “that state regulation of the
right to bear arms ‘has always been more robust’ than
analogous regulation of other constitutional rights. So
long as the defendants produce evidence that ‘fairly
support[s]’ their rationale, the laws will pass
constitutional muster.” Id. (alterations in original)
(citations omitted).
a. Abekassis’s Facial Challenge
Abekassis first argues that 38 RCNY § 5-10 is
facially unconstitutional. See Pl. Mem. at 4 n.1, 6; see
also Compl. ¶¶ 107, 138–39. That claim is
unpersuasive.
To succeed in a facial constitutional challenge,
“the challenger must establish that no set of
circumstances exists under which the [regulation]
would be valid.” United States v. Salerno, 481 U.S.

App-33

739, 745 (1987). The Supreme Court has expressed
disfavor of facial challenges. 13 It has emphasized that
in determining whether a law is facially invalid, “we
must be careful not to go beyond the statute’s facial
requirements and speculate about ‘hypothetical’ or
‘imaginary’ cases.” Wash. State Grange, 552 U.S. at
449–50 (2008). And the Second Circuit has counseled
caution in the specific context of a facial Second
Amendment challenge to a statute. In NYSRP v.
Cuomo, for example, the Circuit described “a facial
challenge to a legislative enactment [a]s ‘the most
difficult challenge to mount successfully’” and as
presenting a “prohibitively high bar.” See NYSRP v.
Cuomo, 804 F.3d at 265 (quoting Salerno, 481 U.S. at
745).
To survive intermediate scrutiny, § 5-10 need
only be substantially related to an important
government interest. “It is beyond cavil that . . . states
have ‘substantial, indeed compelling government
interests in public safety and crime prevention.’”
NYSRP v. Cuomo, 804 F.3d at 261 (quoting
Kachalsky, 701 F.3d at 97). And, in assessing whether
a regulation such as § 5-10 reasonably fits this
interest, a court must bear in mind that “[i]n the
context of firearm regulation,” the judiciary is not in
the best position, relative to legislatures, “to make
See Wash. State Grange v. Wash. State Republican Party, 552
U.S. 442, 450–51 (2008) (“Facial challenges are disfavored for
several reasons. Claims of facial invalidity often rest on
speculation[,]…raise the risk of premature interpretation of
statutes on the basis of factually barebones records[,]…run
contrary to the fundamental principle of judicial restraint[,
and]…threaten to short circuit the democratic process by
preventing laws embodying the will of the people from being
implemented in a manner consistent with the Constitution.”
(internal quotation marks and citations omitted)).
13

App-34

sensitive public policy judgments…concerning the
dangers in carrying firearms and the manner to
combat those risks.” See Kachalsky, 701 F.3d at 97.
Measured against these familiar standards, §
5-10 survives Abekassis’s facial challenge. Section 510 applies within New York City and implements
N.Y. Penal Law § 400.00 - New York State’s statutory
mechanism for firearms licensing––which, as noted,
requires that an applicant, inter alia, lack convictions
for felonies or serious offenses, be of good moral
character, and be someone for “whom no good cause
exists for the denial of the license.” N.Y. Penal Law §
400.00(1)(b)–(c), (n). Section 5-10’s “handgunlicensing scheme substantially relates to [the interest
in public safety and crime prevention] because ‘it is
designed to promote public safety and prevent gun
violence.’” Toussaint, 2018 WL 4288637, at *6
(quoting Kwong, 723 F.3d at 168). Section 5-10’s
requirement that an “applicant hav[e] a ‘good moral
character’” is clearly aimed at denying firearms to
applicants who “would present a potential risk to the
safety and security of the public if granted a license to
possess a pistol.” See Aron, 48 F. Supp. 3d at 374; see
also Bach v. Pataki, 408 F.3d 75, 91 (2d Cir. 2005)
(New York “has a substantial and legitimate interest
…in insuring the safety of the general public from
individuals who, by their conduct, have shown
themselves to be lacking the essential temperament
or character which should be present in one entrusted
with a dangerous instrument”) (alteration in original)
(citation omitted), overruled on other grounds by
McDonald, 561 U.S. 742. And the multiple factors
that § 5-10 directs be considered as part of that
inquiry, considered together, serve the interests in

App-35

public safety and crime prevention “by limiting the
issuance of permits to individuals whom the License
Division deems are able to possess a handgun safely.”
Toussaint, 2018 WL 4288637, at *6; see also
Mishtaku, 2015 WL 13002182, at *6. On its face,
therefore, the § 5-10 regulatory scheme validly serves
the important government interest of protecting the
safety and security of the public by ensuring only lawabiding, responsible citizens possess firearms.
Apart from challenging § 5-10 as a whole,
Abekassis contends that § 5-10(a), (h), and (n) are
each separately facially invalid. His attack misses the
mark in two respects. First, insofar as Abekassis
attempts to isolate each factor as an inherently
improper basis on its own to deny a handgun license,
he ignores that, under § 5-10, no single factor is
dispositive for the licensing officer’s moral-character
determination. Indeed, even where multiple or all
factors are present, the text of § 5-10 makes the denial
of a license discretionary, not mandatory. See 38
RCNY § 5-10 (providing that application “may be
denied” after consideration of the 14 factors
(emphasis added)). Second, to the extent that § 5-10
leaves open the possibility that a license could be
denied on the basis of a particular factor (whether
viewed alone or in combination with others), there are
clearly sets of circumstances in which each of the
three factors may serve the interest of public safety
and crime prevention so as to justify a license denial.
Specifically:
Section 5-10(a): This factor inquires whether
an applicant “has been arrested, indicted or convicted
for a crime or violation except minor traffic
violations[.]” 38 RCNY § 5-10(a). This factor advances
the goal of public safety by identifying persons whose

App-36

criminal records raise doubt about their capacity and
inclination to abide by the law and act responsibly. In
challenging this factor, Abekassis focuses on charges
(e.g., arrests) that did not result in a conviction. In
some instances, the bare fact of an earlier arrest may
well not be illuminating as to an applicant’s capacity
to responsibly possess firearms. But, as various courts
have recognized, such charges and the circumstances
underlying them, particularly when considered in
combination with other § 5-10 factors, can shed light
on whether an applicant has a suitable moral
character or represents a threat to public safety. See,
e.g., Toussaint, 2018 WL 4288637, at *6–7 & n.7
(upholding application of § 5-10(a) to applicant whose
criminal record reflected arrests, not convictions);
Mishtaku, 2015 WL 13002182, at *5–6 (same).
Abekassis’s facial challenge to this factor therefore
fails.
Section 5-10(h): This factor inquires whether
the applicant “has a poor driving history, has multiple
driver license suspensions or has been declared a
scofflaw by the New York State Department of Motor
Vehicles.” 38 RCNY § 5-10(h). It is of course easy to
imagine cases in which behavior of this nature is not
probative of an applicant’s capacity for responsible
and safe gun possession. But on a facial challenge,
that is not the proper question. In particular cases,
this data, too, has the capacity - including when
viewed alongside other § 5-10 factors – to reveal
whether the applicant has complied with, or
disobeyed and disrespected, another state licensing
scheme aimed at assuring public safety. It, too, cannot
be held facially invalid.
Section 5-10(n): This factor inquires whether
“[o]ther information demonstrates an unwillingness

App-37

to abide by the law, a lack of candor towards lawful
authorities, a lack of concern for the safety of oneself
and/or other persons and/or for public safety, and/or
other good cause for the denial of the license.” 38
RCNY § 5-10(n). It is not clear whether Abekassis has
abandoned his initial claim that § 5-10(n) is
unconstitutional on its face, as he now admits that
“there may be circumstances warranting the denial of
a handgun permit under § 5-10(n).” Pl. Mem. at 15. In
any event, §5-10(n), too, is not facially invalid.
Gauging an applicant’s respect for the law and
concern for public safety are clearly substantially
related to the state interest in assuring that licenses
to possess firearms are issued to persons whose
history reflects a responsible, safe temperament, and
respect for the law. This catch-all factor empowers the
License Division to consider evidence bearing on
these traits that does not fit among the earlier
enumerated factors. Cf. Aron, 48 F. Supp. 3d at 371–
72 (finding that N.Y. Penal Law § 400.00(1) “was
enacted to promote public safety and prevent crime,”
“substantially relates to the important governmental
objective of ensuring that only law-abiding,
responsible citizens are allowed to possess a
handgun,” and “constitutes a reasonable fit between
New York’s objective and the law”). Thus, it too is
facially valid.
Accordingly, applying intermediate scrutiny,
the Court holds that § 5-10 - including the three
factors challenged by Abekassis - manifests a
reasonable fit between the goals of public safety and
reduction of crime, on the one hand, and the

App-38

regulatory scheme, on the other. The Court denies
Abekassis’s facial challenge. 14
Abekassis notably does not argue that § 5-10 is procedurally
defective, for example, by vesting unreviewable discretion in the
licensing officer. And such an argument would lack merit. An
applicant whose license is initially denied is not only able to
appeal within the License Division, as Abekassis did, but also
can thereafter bring an Article 78 proceeding, challenging the
license denial as arbitrary and capricious in New York state co
rt has noted in refuting the argument that the statute affords
inadequate remedies:
14

The statute provides an unsuccessful
applicant with an administrative appeal
process, and that decision can be challenged
in court in a CPLR Article 78 proceeding. As
the People state, “[i]f an applicant is
unsatisfied with the judgment of Supreme
Court, he/she is entitled, as of right, to appeal
the final judgment of that court to the
Appellate Division (CPLR 5701[a]), whose
order is appealable, by permission, to the
Court of Appeals. CPLR 5602(1)(a)” (Peo’s Br.
at 10). The court’s role in such an Article 78
proceeding
is
to
ensure
that
the
administrative decision denying a petitioner
a firearms license was neither arbitrary and
capricious nor an abuse of discretion.
Goldstein v. Brown, 592 N.Y.S.2d 343 (1st
Dep[’t] 1993)…[C]ontrary to defendant's
claim, the discretion of a pistol licensing
officer to deny an application “is not
unfettered, and the officials involvedincluding the NYPD licensing division - are
bound by standards reviewable in a court of
law” (Peo’s Br. at 11).
People v. Nivar, 915 N.Y.S.2d 801, 808 (Sup. Ct., Bronx Cnty.
2011) (rejecting argument that firearms license review process
was under the “complete control and virtually unreviewable

App-39

b. Abekassis’s As-Applied Challenge
Abekassis next contends that 38 RCNY § 5-10
is unconstitutional as applied to him. See Pl. Mem. at
4 n.1, 6; see also Compl. ¶¶ 107, 138–39. The thrust
of this argument is that even if § 5-10 may be
constitutionally applied to bar others from possessing
a firearm in the home, that is not so here, because he
does not have any criminal convictions, and the
assembled conduct such as his arrests, criminal
summonses, and driving record on which the
Licensing Officer and Appeals Unit relied is
insufficient to justify abridging his Second
Amendment right. See Pl. Mem. at 9–10.
Abekassis’s
as-applied
challenge
gains
considerably more traction than his facial challenge.
That is because he does not have a felony conviction,
established mental health or substance abuse
problems, or allegations of domestic violence. In the
limited federal cases arising under § 5-10, these
paradigmatic “red flags” are often cited as a basis for
denying a firearms license. See, e.g., Toussaint, 2018
WL 4288637, at *1 (denying carry handgun license
where applicant had four felony arrests, a summons
discretion of the New York City Police Commissioner”); see also
Gurnett v. Bargnesi, 47 N.Y.S.3d 173, 174 (4th Dep’t 2017)
(analyzing Article 78 claim challenging revocation of gun
license). For reasons that the record does not make clear,
Abekassis did not bring an Article 78 challenge to the denial of
a license. This case therefore does not present the issue whether,
in an Article 78 proceeding challenging the denial of a firearms
license, the Second Amendment requires a standard of review
more demanding than the ordinarily applicable arbitrary and
capricious standard. See Nivar, 915 N.Y.S.2d at 808 n.9; see also
Delgado v. Kelly, 8 N.Y.S.3d 172, 172–73 (1st Dep’t 2015)
(applying “rational basis” standard to license denial in Article 78
proceeding); Kelly v. Klein, 946 N.Y.S.2d 218, 219 (2d Dep’t 2012)
(applying “arbitrary and capricious” standard to same).

App-40

for an open-container violation, and had been the
subject of an order of protection); Mishtaku, 2015 WL
13002182, at *1 (denying premises handgun license
based on, inter alia, a prior arrest and a psychological
evaluation from which “the NYPD determined that
Plaintiff was ‘unsuitable for the position of Police
Officer’” (citation omitted)). And some of the
infractions cited in support of the license denial are
fairly viewed, individually, as minor. Abekassis’s case
therefore comes closer than these precedents to
testing the outer reach of a locality’s authority to deny
a license for handgun possession in the home under
the Second Amendment. His as-applied challenge
presents, in this Court’s view, a close question.
Nevertheless, the Court concludes that, on the
unusual assemblage of facts that Abekassis’s license
application presented, the License Division and
Appeals Unit acted within constitutional bounds in
finding that he lacked the moral character to possess
a gun and that he had shown a “lack of concern[] for
himself and others” inconsistent with licensure.
Importantly, the Second Amendment right to
individual gun possession as articulated in Heller and
McDonald is limited to “law-abiding, responsible
citizens[.]” Bryant, 711 F.3d at 369 (citation omitted).
Here, Abekassis’s history reflects a litany of actual or
alleged instances of failure to comply with legal
duties. These include disregard of duties that
implicated or potentially implicated public safety. In
affirming the denial of the license, the Appeals Unit
noted that Abekassis had been arrested at age 15 for
second-degree arson; that he had later been arrested
for aggravated unlicensed operation of a vehicle in the
third degree, after which he pled guilty to a noncriminal charge of operating a vehicle without a

App-41

license; that he had received 14 moving violations;
and that his drivers’ license had been suspended nine
times (five for unpaid fines and four for non-scofflaw
reasons). Also before the Appeals Unit – and
implicitly relied insofar as the Appeals Unit cited § 510(n)––were Abekassis’s five criminal summonses,
covering varied infractions.
This unusually long list of established or
alleged non-compliance with legal duties was
reasonably viewed by the License Division and
Appeals Unit as raising doubts about Abekassis’s
character and his capacity for safe and responsible
gun possession. See 38 RCNY § 5-10 (instructing
License Division to “consider all relevant factors”). To
be sure, as Abekassis emphasizes, some of these
lapses were or appear to have been quotidian. But
even if no single arrest or other infraction of his in
isolation would have justified the denial of a gun
license - a question the Court has no occasion to
consider––viewed holistically, Abekassis’s history of
serial disregard for laws and regulations justified
concerns about his capacity for self-restraint. It fairly
raised doubts within the License Division and
Appeals Unit about whether he would scrupulously
comply with important legal duties implicating public
safety. It fairly called into question whether he would
be similarly inattentive to both the important
restrictions associated with a gun license and to the
safety of others in his vicinity. See Toussaint, 2018
WL 4288637, at *4 & n.6, 6 (upholding application of
§ 5-10(a) to deny firearm license to applicant who had

App-42

four arrests, none resulting in a criminal conviction
and all over 10 years old). 15
15 Cf. Tuttle v. Cacace, 81 N.Y.S.3d 195, 196 (2d Dep’t 2018)
(affirming denial of pistol license under N.Y. Penal Law §
400.00(1) based on applicant’s five arrests, two of which he failed
to report on his application, and explaining that “[t]he fact that
the charges against the petitioner were dismissed and/or
adjourned in contemplation of dismissal and eventually
dismissed does not disqualify the circumstances surrounding the
arrests from consideration”); Karagolian v. Walsh, 966 N.Y.S.2d
518, 519–20 (2d Dep’t 2013) (affirming suspension of pistol
license under N.Y. Penal Law § 400.00(1) where applicant had
been arrested on charges of resisting arrest, obstructing
governmental administration, and harassment, and had
separately been arrested for driving while intoxicated); In re
Idlett, No. A-2415-14T3, 2016 WL 2745907, at *1–2 (N.J. Super.
Ct. App. Div. May 12, 2016) (reversing approval of handgun
permit based on applicant’s “atrocious” driving record—which
included, inter alia, 16 speeding tickets, 15 license suspensions,
numerous citations (including with a suspended license), and a
citation for fictitious license plates months before he submitted
his permit application—because it “demonstrated him unfit [to
possess a handgun] under the health and safety exception” of
New Jersey law); In re Banic, No. A-0829-08T4, 2009 WL
2579436, at *1–2 (N.J. Super. Ct. App. Div. Aug. 24, 2009)
(affirming denial of duplicate firearms purchaser identification
card under New Jersey law because issuance of such a card was
not “in the interest of the public, health, safety or welfare” where
applicant had been arrested, had a lengthy poor driving record,
pled guilty to a petty disorderly persons offense as “a young
man,” and—although disputed by the applicant—lied about that
plea in his permit application); Boss v. Dudley Dist. Ct., No. 08
Civ. 2762 (DJC), 2009 WL 4894341, at *2 (Mass. Super. Nov. 18,
2009) (upholding machine gun license denial under
Massachusetts law, where applicant had 17 speeding
infractions, two drunk driving charges, and nine license
suspensions, and observing that “[t]his profile does not comport
with that of the ordinary motoring public” and that “it is
reasonable to deny a gun license based on a criminal charge that
was ultimately dismissed,” as “[t]he goal of firearms control . . .

App-43

The NYPD License Division and Appeals Unit
thus were within bounds to conclude that “by [his]
conduct, [Abekassis] ha[s] shown [himself] to be
lacking in the essential temperament or character
which should be present in one entrusted with a
dangerous instrument.” Bach, 408 F.3d at 91 (citation
omitted). In intermediate scrutiny terms, there was a
reasonable fit between denying Abekassis’s license
based on the evidence before the License Division and
Appeals Unit and the constitutionally permissible
objective of protecting the public’s safety and security
by limiting possession of firearms to “law-abiding,
responsible citizens.” Heller, 554 U.S. at 635.
Therefore, the Court holds that § 5-10 was
constitutionally applied to Abekassis, and denies his
as-applied Second Amendment claim. 16
C.

Supplemental
Jurisdiction
for
the
Preemption Claim
The Court finally considers Abekassis’s claim
that 38 RCNY § 5-10 is preempted by New York State
law - specifically, Penal Law § 400.00. See Compl. ¶¶
144–46; Pl. Mem. at 21–22. He argues that § 5-10
is to limit access to deadly weapons by irresponsible persons”
(citation omitted)).
16 Abekassis’s Complaint also alleges that portions of the New
York State licensing scheme that impose criminal penalties for
possessing a gun without a license are unconstitutional. See
Compl. ¶¶ 140–43 (citing N.Y. Penal Law §§ 265.01(1), 265.01-b,
265.02(5)(i), 265.04(2), and 265.15(6)). As formulated in the
Complaint, however, this claim is derivative of Abekassis’s
claim that he was unconstitutionally denied a premises handgun
license. Id. ¶ 42. Accordingly, because the Court dismisses
Abekassis’s facial and as-applied challenges to § 5-10, the Court
denies his challenge to the state penalty provisions as well.

App-44

impermissibly expands the “moral character” and
“other good cause” analyses envisioned by state law.
See Pl. Mem. at 21. Defendants argue that in the
absence of viable federal claims, the Court should
decline to exercise supplemental jurisdiction over this
state-law claim. See Def. Mem. at 14–15. The Court
agrees and dismisses this claim without prejudice to
Abekassis’s ability to bring such a challenge in state
court.
Federal district courts have supplemental
jurisdiction over non-federal-law claims “that are so
related to claims in the action within such original
jurisdiction that they form part of the same case or
controversy under Article III of the United States
Constitution.” 28 U.S.C. § 1367(a). However, a district
court may, at its discretion, “decline to exercise
supplemental jurisdiction over a claim” under any of
four circumstances: “(1) the claim raises a novel or
complex issue of State law, (2) the claim substantially
predominates over the claim or claims over which the
district court has original jurisdiction, (3) the district
court has dismissed all claims over which it has
original jurisdiction, or (4) in exceptional
circumstances, there are other compelling reasons for
declining jurisdiction.” 28 U.S.C. § 1367(c).
The Supreme Court and the Second Circuit
have instructed that, in deciding whether to exercise
supplemental jurisdiction, a district court should
balance the traditional “values of judicial economy,
convenience, fairness, and comity,” Carnegie-Mellon
Univ. v. Cohill, 484 U.S. 343, 350 (1988), and that, as
a general rule, “when the federal claims are dismissed
the‘state claims should be dismissed as well,’” In re
Merrill Lynch Ltd. P’ships Litig., 154 F.3d 56, 61 (2d
Cir. 1998) (quoting United Mine Workers v. Gibbs, 383

App-45

U.S. 715, 726 (1966)). Although the exercise of
supplemental jurisdiction is discretionary, the
ordinary case “will point toward declining jurisdiction
over the remaining state-law claims.” Id. (quoting
Cohill, 484 U.S. at 350 n.7).
Here, no circumstances counsel in favor of
exercising supplemental jurisdiction over Abekassis’s
remaining state-law claim, given the Court’s
dismissal of all of Abekassis’s federal claims. To the
contrary, the Complaint itself recognizes the
complexity of New York State’s licensing scheme,
describing N.Y. Penal Law § 400.00 as “very
comprehensive,” “by its detailed nature, le[aving] no
room for local ordinances,” and giving localities
“detailed instructions.” Compl. ¶¶ 114, 120. The
interaction of the New York State gun licensing
scheme and New York City’s complementary
regulatory scheme, and whether the latter is in
conflict with the former, presents a “novel or complex
issue of State law.” See 28 U.S.C. § 1367(c)(1); see also
Kolari v. N.Y.-Presbyterian Hosp., 455 F.3d 118, 124
(2d Cir. 2006) (“[A] district court particularly abuses
its discretion when it retains jurisdiction over statelaw claims raising unsettled questions of law
following dismissal of all original-jurisdiction
claims.”). There is no occasion for this federal Court
to take on those purely state-law issues. Particularly
with the Court’s having dismissed Abekassis’s federal
claims at the threshold, the factors of convenience and
fairness do not favor the exercise of supplemental
jurisdiction to consider Abekassis’s state-law
preemption claim, and the factor of comity
affirmatively disfavors doing so. The Court
accordingly declines to exercise supplemental

App-46

jurisdiction over Abekassis’s state-law preemption
claim. That claim is dismissed without prejudice.
CONCLUSION
For the foregoing reasons, the Court grants
defendants’ motion to dismiss in full. The Court
dismisses Abekassis’s federal claims, with prejudice,
and dismisses Abekassis’s state-law preemption
claim, without prejudice to his right to bring such a
claim in state court.
The Court respectfully requests that the Clerk of
Court terminate the motion pending at docket 12 and
close this case.
SO ORDERED.
[handwritten: signature]
Paul A. Engelmayer
United States District Judge
Dated: August 7, 2020
New York, New York

App-47

Appendix D
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. amend. II
A well regulated Militia, being necessary to the
security of a free State, the right of the people to keep
and bear Arms, shall not be infringed.
N.Y. Penal Law § 400.00(1)
1. Eligibility. No license shall be issued or renewed
pursuant to this section except by the licensing
officer, and then only after investigation and finding
that all statements in a proper application for a
license are true. No license shall be issued or
renewed except for an applicant (a) twenty-one years
of age or older, provided, however, that where such
applicant has been honorably discharged from the
United States army, navy, marine corps, air force or
coast guard, or the national guard of the state of New
York, no such age restriction shall apply; (b) of good
moral character; (c) who has not been convicted
anywhere of a felony or a serious offense or who is not
the subject of an outstanding warrant of arrest issued
upon the alleged commission of a felony or serious
offense; (d) who is not a fugitive from justice; (e) who
is not an unlawful user of or addicted to any controlled
substance as defined in section 21 U.S.C. 802 ; (f) who
being an alien (i) is not illegally or unlawfully in the
United States or (ii) has not been admitted to the
United States under a nonimmigrant visa subject to
the exception in 18 U.S.C. 922(y)(2) ; (g) who has not
been discharged from the Armed Forces under
dishonorable conditions; (h) who, having been a
citizen of the United States, has not renounced his or

App-48

her citizenship; (i) who has stated whether he or she
has ever suffered any mental illness; (j) who has not
been involuntarily committed to a facility under the
jurisdiction of an office of the department of mental
hygiene pursuant to article nine or fifteen of the
mental hygiene law, article seven hundred thirty or
section 330.20 of the criminal procedure law , section
four hundred two or five hundred eight of the
correction law , section 322.2 or 353.4 of the family
court act , or has not been civilly confined in a secure
treatment facility pursuant to article ten of the
mental hygiene law; (k) who has not had a license
revoked or who is not under a suspension or
ineligibility order issued pursuant to the provisions of
section 530.14 of the criminal procedure law or section
eight hundred forty-two-a of the family court act ; (l)
in the county of Westchester, who has successfully
completed a firearms safety course and test as
evidenced by a certificate of completion issued in his
or her name and endorsed and affirmed under the
penalties of perjury by a duly authorized instructor,
except that: (i) persons who are honorably discharged
from the United States army, navy, marine corps or
coast guard, or of the national guard of the state of
New York, and produce evidence of official
qualification in firearms during the term of service
are not required to have completed those hours of a
firearms safety course pertaining to the safe use,
carrying, possession, maintenance and storage of a
firearm; and (ii) persons who were licensed to possess
a pistol or revolver prior to the effective date of this
paragraph are not required to have completed a
firearms safety course and test; (m) who has not had
a guardian appointed for him or her pursuant to any
provision of state law, based on a determination that

App-49

as a result of marked subnormal intelligence, mental
illness, incapacity, condition or disease, he or she
lacks the mental capacity to contract or manage his or
her own affairs; and (n) concerning whom no good
cause exists for the denial of the license. No person
shall engage in the business of gunsmith or dealer in
firearms unless licensed pursuant to this section. An
applicant to engage in such business shall also be a
citizen of the United States, more than twenty-one
years of age and maintain a place of business in the
city or county where the license is issued. For such
business, if the applicant is a firm or partnership,
each member thereof shall comply with all of the
requirements set forth in this subdivision and if the
applicant is a corporation, each officer thereof shall so
comply.
Rules of the City of N.Y., Title 38, Section 3-03
Grounds for Denial of Permit.
In addition to other bases for disqualification
pursuant to federal, state, and local law and this
chapter, an application for a rifle/shotgun permit may
be denied where it is determined that an applicant
lacks good moral character or that other good cause
exists for denial, pursuant to § 10-303 of the
Administrative Code of the City of New York. Such a
determination shall be made based upon
consideration of the following factors:
(a) The applicant has been arrested, indicted or
convicted for a crime or violation except minor traffic
violations, in any federal, state or local jurisdiction.
(b) The applicant has been other than honorably
discharged from the Armed Forces of this country.
(c) The applicant has or is reasonably believed to
have a disability or condition that may affect the

App-50

ability to safely possess or use a rifle or shotgun,
including but not limited to alcoholism, drug use or
mental illness.
(d) The applicant is or has been an unlawful user
of, or addicted to, a controlled substance or
marijuana.
(e) The applicant made a false statement on
her/his application, or failed to disclose her/his
complete arrest history, including sealed arrests.
Sealed arrests are made available to the License
Division pursuant to Article 160 of the Criminal
Procedure Law when an application has been made
for a permit to possess a gun.
(f) The applicant is the subject of an order of
protection or a temporary order of protection.
(g) The applicant has a history of one or more
incidents of domestic violence.
(h) The applicant has a poor driving history, has
multiple driver license suspensions or has been
declared a scofflaw by the New York State
Department of Motor Vehicles.
(i) The applicant has failed to comply with federal,
state or local law or with Police Department rules
governing possession and use of handguns, rifles,
shotguns or ammunition.
(j) The applicant has been terminated from
employment under circumstances that demonstrate
lack of good judgment or lack of good moral character.
(k) The applicant has demonstrated an inability to
safely store firearms, such as through a history of
lost/stolen firearms.
(l) The applicant has failed to pay legally required
debts such as child support, taxes, fines or penalties
imposed by governmental authorities.

App-51

(m) The applicant fails to cooperate with the
License Division’s investigation of her/his application
or fails to provide information requested by the
License Division or required by this chapter.
(n) Other
information
demonstrates
an
unwillingness to abide by the law, a lack of candor
towards lawful authorities, a lack of concern for the
safety of oneself and/or other persons and/or for public
safety, and/or other good cause for the denial of the
permit. In evaluating incidents or circumstances
pursuant to this section, the License Division shall
consider all relevant factors, including but not limited
to the number, recency and severity of incidents and
the outcome of any judicial or administrative
proceedings.
Rules of the City of N.Y., Title 38, Section 5-10
Grounds for Denial of Handgun License.
In addition to other bases for disqualification
pursuant to federal, state, and local law and this
chapter, an application for a handgun license may be
denied where it is determined that an applicant lacks
good moral character or that other good cause exists
for denial, pursuant to New York State Penal Law §
400.00 (1). Such a determination shall be made based
upon consideration of the following factors:
(a) The applicant has been arrested, indicted or
convicted for a crime or violation except minor traffic
violations, in any federal, state or local jurisdiction.
(b) The applicant has been other than honorably
discharged from the Armed Forces of this country.
(c) The applicant has or is reasonably believed to
have a disability or condition that may affect the
ability to safely possess or use a handgun, including

App-52

but not limited to alcoholism, drug use or mental
illness.
(d) The applicant is or has been an unlawful user
of, or addicted to, a controlled substance or
marijuana.
(e) The applicant made a false statement on her/his
application, or failed to disclose her/his complete
arrest history, including sealed arrests. Sealed
arrests are made available to the License Division
pursuant to Article 160 of the Criminal Procedure
Law when an application has been made for a license
to possess a gun.
(f)
The applicant is the subject of an order of
protection or a temporary order of protection.
(g) The applicant has a history of one or more
incidents of domestic violence.
(h) The applicant has a poor driving history, has
multiple driver license suspensions or has been
declared a scofflaw by the New York State
Department of Motor Vehicles.
(i) The applicant has failed to comply with federal,
state or local law or with Police Department rules
governing possession and use of firearms, rifles,
shotguns or ammunition.
(j)
The applicant has been terminated from
employment under circumstances that demonstrate
lack of good judgment or lack of good moral character.
(k) The applicant has demonstrated an inability to
safely store firearms, such as through a history of
lost/stolen firearms.
(l) The applicant has failed to pay legally required
debts such as child support, taxes, fines or penalties
imposed by governmental authorities.
(m)
The applicant fails to cooperate with the
License Division's investigation of her/his application

App-53

or fails to provide information requested by the
License Division or required by this chapter.
(n)
Other information demonstrates an
unwillingness to abide by the law, a lack of candor
towards lawful authorities, a lack of concern for the
safety of oneself and/or other persons and/or for public
safety, and/or other good cause for the denial of the
license. In evaluating incidents or circumstances
pursuant to this section, the License Division shall
consider all relevant factors, including but not limited
to the number, recency and severity of incidents and
the outcome of any judicial or administrative
proceedings.
Rules of the City of N.Y., Title 38, Section 5-11
Grounds for Suspension for Defined Period or
Revocation of Handgun License.
A handgun license may be suspended for a defined
period or revoked upon evidence of any
disqualification pursuant to this chapter. A handgun
license shall be revoked upon the conviction in this
state or elsewhere of a felony or a serious offense, as
defined in subdivision seventeen of section 265.00 of
the penal law. Evidence of disqualification may be
demonstrated by an investigation, by a licensee’s
failure to cooperate with such an investigation, or by
other evidence.
Rules of the City of N.Y., Title 38, Section 5-28
Renewal of the Handgun License.
The licensee is required to renew her/his handgun
license every three (3) years. The license expires on
the licensee's birthday.

App-54

(a) The renewal process generally begins sixty (60)
calendar days prior to the licensee's month of birth.
The licensee shall receive her/his renewal application,
instructions, and other required forms and her/his
invalidated license in the mail. As part of the renewal
process, the License Division may require that the
licensee produce all licensed handguns for inspection,
either using a random selection procedure or when a
review of the renewal package discloses the need for
such an inspection, as directed by the Commanding
Officer, License Division. The licensee shall receive
appropriate instructions and a form Affidavit of
Handgun Possession, to be completed and affirmed in
writing as part of the renewal package. If so directed,
the licensee shall transport all licensed handguns to
the License Division, One Police Plaza, Room 152,
New York, New York or otherwise make the
handguns available for inspection, in the manner
directed by the instructions. The licensee shall
examine the license, complete all required forms
including providing color photos, forwarding fees
(payable by certified check or money order only), etc.,
and return the renewal package to the License
Division by mail, as soon as possible. Upon receipt of
the renewal material, the License Division shall
process the renewal and return the validated license
to the licensee by mail.
(b) The license is not valid unless stamped and
sealed by the License Division. The licensee shall sign
her/his license in the designated area on the back of
the license.
(c) The renewal application and related documents
shall be mailed to the address on the license. If the
licensee has moved and has not notified the License
Division, the renewal documents shall be returned to

App-55

the License Division and her/his license shall be
cancelled for failure to notify the License Division of
an address change (see Address Change – 38 RCNY §
5-29).
(d) If the licensee has not received her/his renewal
documents thirty (30) calendar days prior to her/his
birth date, s/he shall contact the Renewal Unit at
telephone number (212) 374-5531, or 5532, for
instructions.
(e) If the licensee has extenuating circumstances
which prevent her/him from renewing prior to her/his
birth date, s/he shall submit a notarized letter to the
Renewal Unit explaining the circumstances. The
License Division shall contact the licensee and advise
her/him on how to proceed. However, if the licensee is
not notified by the License Division by her/his birth
date, s/he shall voucher her/his handgun(s) at her/his
local precinct until the matter is resolved.
(f) Licensees shall carefully read and comply with
the instructions on their renewal documents.
(g)
Incomplete or incorrectly prepared renewal
documents shall not be processed, and shall be
returned to the licensee for completion/correction,
with a letter indicating the problem, information
omitted, etc. Consequently, if as a result of the
licensee's error, the licensee fails to submit the
required material, fees, etc., by her/his birthday, s/he
shall be required to voucher her/his handgun(s) at
her/his local precinct until the renewal process is
completed.
(h) If the licensee's birthday has passed and s/he
has not yet renewed, s/he shall immediately voucher
her/his handgun(s) at her/his local precinct. The
License Division shall not process any late renewals
unless a copy of the voucher is attached to the

App-56

complete renewal application which is to be submitted
by mail.
(i) Failure to renew the license on time is cause for
cancellation of the license.
(j)
Possession of any unlicensed handgun is a
violation of Article 265 of the New York State Penal
Law, and may subject the licensee to arrest.
(k) Renewal fees shall be in the form of a money
order or a certified check made payable to the N.Y.C.
Police Department. Cash and personal checks shall
not be accepted.

App-57

Appendix E
Email from NYPD License Division to
Petitioner Dated December 17, 2020
From:
To:
Cc:
Date:

GILLIAMKETCHAM, MICHELLE
ralphabekassis@gmail.com
Amy L. Bellantoni
Thursday, December 17, 2020
1:54:06 PM

Good day Mr. Abekassis, your Premise Residence
handgun license is ready for issuance. Please call me
at the number listed below or email to schedule an
appointment to pick up the license, as all applicants/
licensee's must have an appointment to visit the
building.
Michelle Gilliam-Ketcham
Associate Investigator II
License Division, Room 110A
646-610-6470

App-58

Appendix F
Email from N.Y. Law Department
Dated August 9, 2021
From:
To:
Cc:
Subject:
Date:

Shapiro, Zachary (Law)
Amy L. Bellantoni
Platton, Claude S. (Law)
Taveras v. N.Y.C., No. 21-398
Monday, August 9, 2021
12:53:42 PM

Confidential Communication Under FRE 408
Ms. Bellantoni:
Defendants-appellees would be willing to issue Mr.
Taveras his requested rifle/shotgun permit in
settlement of this case. Please let us know if your
client would be amenable to such an agreement.
Thanks,
Zach
Zachary S. Shapiro
Senior Counsel │Appeals Division
New York City Law Department
100 Church Street
New York, New York 10007
(212) 356-1645 │zashapir@law.nyc.gov

